         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
The Department of Energy's
Management of the NSLS-II Project




OAS-RA-L-10-01                         April 2010
DOE F 1325.8
     (4/93)




United States Government                                                        Department of Energy

Memorandum
     DATE:     April 6, 2010                                  Audit Report Number: OAS-RA-L-10-01
REPLY TO
  ATTN TO:     IG-32 (A10RA006)
 SUBJECT:      Report on "The Department of Energy's Management of the NSLS-II Project"
         TO:   Manager, Brookhaven Site Office, SC-BHSO

               INTRODUCTION AND OBJECTIVE

               The Department of Energy's (Department) Office of Science is currently constructing the
               National Synchrotron Light Source II (NSLS-II) at Brookhaven National Laboratory
               (Brookhaven) in Upton, New York. The NSLS-II is designed to replace the existing
               National Synchrotron Light Source (NSLS), which began operations in 1982.
               Approximately 2,100 researchers utilize the NSLS each year for research in such areas as
               biology and medicine, chemistry and environmental sciences, physics, and materials
               science. Construction of the NSLS-II began in Fiscal Year (FY) 2009 and the facility is
               scheduled to begin operations in FY 2015.

               The NSLS-II is expected to produce x-rays that are more than 10,000 times brighter
               than the original NSLS. At completion, the NSLS-II Project will include an electron
               storage ring that is approximately one half mile in circumference and 400,000 gross
               square feet in facilities. To help accelerate completion, the Office of Science allocated
               $150 million in funding from the American Recovery and Reinvestment Act of 2009
               (Recovery Act). In total, the project is estimated to cost $912 million. Recovery Act
               funding is being used to accelerate the construction of office buildings around the
               storage ring and the facility housing the electron injector.

               Due to the importance of the Office of Science's mission and the significant investment
               in this Project, we initiated this audit to determine whether the Office of Science
               implemented controls over the NSLS-II Project and its use of Recovery Act funds.

               CONCLUSION AND OBSERVATIONS

               Based on our audit, nothing came to our attention to indicate that NSLS-II Project
               Managers were not employing sound project management practices, such as preparing
               project execution plans, acquisition strategies, and risk analysis and mitigation plans
               found in Department Order 413.3A, Program and Project Management for the
               Acquisition of Capital Assets. Except for instances where costs were not properly
               segregated, we found that the Project was generally in compliance with Recovery Act
               reporting guidelines as well as Davis-Bacon Act requirements.
Regarding the segregation of costs, Brookhaven did not always segregate Recovery Act
and non-Recovery Act costs. For example, Brookhaven accrued $1.7 million in costs
for seven non-Recovery Act work activities to Recovery Act accounts. Even though the
general contractor, a civil construction subcontractor to Brookhaven responsible for
construction of the ring building, accurately reported these activities as non-Recovery
Act funded on its August and November 2009 invoices, Brookhaven chose to accrue the
costs to Recovery Act accounts. The costs were correctly charged to non-Recovery Act
accounts when they were ultimately paid. Errors resulting from the improper accrual
were not corrected and resulted in inaccurate information being reported to
FederalReporting.gov. FederalReporting.gov is the source of information contained on
Recovery.gov which provides information to the public on Recovery Act activities.
Specifically, the $27.6 million contained on Recovery.gov as of December 31, 2009.
was overstated because Brookhaven did not reverse the accrual entries. As of
March 2010, the overstatement for Recovery Act activities was $1.1 million.

A Brookhaven official told us that the general contractor accelerated non-Recovery Act
work and that the Laboratory did not have enough time to process the change order
needed to allocate funding to the appropriate accounts, although sufficient project funds
were available to cover the work performed. The accruals were not reversed because
Brookhaven personnel decided to reconcile the balance in the accrual account on an
annual basis, instead of performing monthly reversal entries. While expedient, this
process, as noted above, results in erroneous information being reported to the public.

We also found that the general contractor did not always segregate Recovery Act and
non-Recovery Act costs. Specifically, costs were not segregated on four of the nine
monthly invoices between April and December 2009. The general contractor did not
segregate costs at all on the April, May, and June invoices and did not correctly identify
all Recovery Act activities on the July 2009 invoice. The general contractor’s July
invoice report claimed that the contractor spent $1,438,140 in regular funding and
$329,377 in Recovery Act funding for two activities that Brookhaven determined
should have been allocated as $560,781 in regular funding and $1,206,736 in Recovery
Act funding. To its credit, Brookhaven correctly allocated the costs in its accounting
system. According to a Brookhaven official, the general contractor did not initially
segregate costs because Brookhaven did not communicate the tasks funded by the
Recovery Act until July 2009 and was still making changes after the July 2009 invoice
was submitted. Since we did not find these types of differences in the next five
invoices, this issue appears to have been resolved.

SUGGESTED ACTIONS

To address the issue with accruals outlined above, we suggest the Contracting Officer,
Brookhaven Site Office direct Brookhaven to:

     Improve coordination with the general contractor to ensure sufficient funding has
     been allocated for the work that will be performed ahead of schedule; and,

                                           2
     Reconcile the accrual accounts periodically to ensure that the amount spent under
     the Recovery Act is accurately reported to FederalReporting.gov.

Since no formal recommendations are being made in this report, a formal response is not
required. We appreciated the cooperation of your and Brookhaven's staff during our
review.




                                             David Sedillo, Director
                                             NNSA & Science Audits Division
                                             Office of Inspector General

Attachment

cc: Team Leader, Office of Risk Management, CF-1.2
    Dianne Williams, Office of Risk Management, CF-1.2
    Audit Liaison, Office of Science, SC-25
    Audit Liaison, Chicago Office




                                         3
SCOPE AND METHODOLOGY

This audit was performed between November 2009 and April 2010 at the Department of
Energy's (Department) Brookhaven Site Office and Brookhaven National Laboratory, both in
Upton, New York. To accomplish the audit objective, we:

     Reviewed and evaluated documentation related to the National Synchrotron Light
     Source II (NSLS-II) Project;

     Judgmentally selected the 25 largest and 5 smallest Recovery Act transactions recorded
     by Brookhaven through November 2009 and traced them to supporting invoices. We
     expanded our sample to include 15 transactions recorded through January 2010 to
     determine whether the cost segregation errors in our initial sample continued. Because
     of the errors, we reviewed all Recovery Act transactions on the nine invoices submitted
     by the NSLS-II Project's general contractor for costs incurred between April and
     December 2009; and,

     Held discussions with personnel from the Brookhaven Site Office, Brookhaven National
     Laboratory, and the Project's general contractor.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective. The audit included tests of
controls and compliance with laws and regulations necessary to satisfy the audit objective.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. During the audit, we assessed the
Department's compliance with the Government Performance and Results Act of 1993 and
found that no specific performance measures related to the NSLS-II were established. We did,
however, note that there are performance measures relevant to the NSLS-II Project such as
facility management. We utilized computer-processed data to identify the population of costs
spent using Recovery Act funding in order to accomplish our audit objective. Based on our
comparisons of computer-processed data to supporting documentation, we determined that the
data were sufficiently reliable for the purposes of our report.

Management waived an exit conference.




                                              4
